No. 20-1143

 

IN THE

Supreme Court of the Anited States

DENISE A. BADGEROW, PETITIONER,
Vv.

GREG WALTERS, ET AL.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

BRIEF FOR THE CHAMBER OF COMMERCE OF THE
UNITED STATES OF AMERICA AS AMICUS CURIAE IN
SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,669 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 17, 2021.

Colin Casey Hog:
Wilson-Epes Printing Co., Inc.
